RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19Winston-Salem Industries for the Blind,
Petitioner,
v.
United States of America; PDS Consultants, Inc.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 8,996 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 9, 2019.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

